               MEDICARE AS A SECONDARY

                   PAYMENT SOURCE


                    END-STAGE RENAL DISEASE




                        Richard P. Kusserow
                        INSPECTOR GENERAL




OAl-07   -82                                  JANUARY 1988
                         OFFICE OF INSPECTOR GENERAL
  The mission of the Offce of Inpector General (OIG) is to promote the effciency, effec­
  tiveness and integrty of program in the United States Deparment of Health and
  Human Servces (HHS). It does this by developing methods to detect and prevent fraud
  waste and abuse. Created by statute in 1976 , the Inpector General keeps both the
  Secretary and Congress fuy and cuently inormed about program or management
  problems and recommends corrective action. The OIG perform its mission by conduct­
  ing audits, investigations and inspections with approxiately 1 200 staf strategically lo­
  cated around the country.


                    OFFICE OF ANALYSIS AND INSPECTIONS
 This report is produced by the Offce of Analysis and Inpectons (OAl), one of the three
 major offces within the OIG. The other two are the Offce of Audit and the Offce of In­
 vestigations. The OAI conducts inpections which are tyically short-term studies
 designed to determe program effectiveness , eff ency and vuerabilty to fraud or
 abuse.

                                      THIS REPORT
 Entitled " Medicare as a Secondar Payment Source--End Stage Renal Disease " this in­
 spection was conducted to determne if the Medicare program is improperly reimbursing
 for medical servces which are covered under an employer group health plan as primary
 payer.

' The inspection was prepared by the Regional Inpector General , Offce of Analysis and
. Inpections , Kansas City region. Paricipating in this project were the following people:

 Kansas City Region                                        Dallas Region
 James Wolf (Leader)                                      Ralph Tunell
 Phil O' Hare                                            . Leah Bostick
 Hugh Owens
 Ray Balandron
 Doris Philips                                            Atlanta Region
 Barbara Quiroga                                          James Wilson

                              Headquarters
                              Bar Steeley
                              Mark Krshat
                              Mar Hogan
                                .........
                      ............        ....  ..........
                                   ...............
                                  .......
                                      ............          ......................
                                          ....................
                                                      ...........
                                                      ........
                                                 .......  ......
                                                     ...........  ...........
                                              ..................................
                                                                   ................    ..............
                                                                                .....................
                                                                                        .............
                                                                    ........ .............
                                                                 .....               ...... ..........
                                                                                            ....
                                                                            ......................




                          TABLE OF CONTENTS


                                                                                                       PAGE


EXECUTIVE SU MMARY

INTRODUCTION ... ........

BACKGROUND

PU RPOSE                                                       ................................. 2
METHODOLOGY

FINDINGS AND RECOMMENDATIONS

APPEN DIX ....................... ........ ................... .................. 


1r   AEil.E: I...... ... .......... ... ..........                     ................. ..... .... 1 ()





1rAEiL.E: II........................................................................

HCFA COM M ENTS.                                                                                     ..... 12
                               EXECUTIVE SUMMARY


PURPOSE          The inpection was conducted to determe whether or not:

                 Medicare overpaid for servces to end-stage renal disease (ESRD)
                 beneficiares who were covered by employer group health plan
                 (EGHPs) and, if so , how much was overpaid;

                 medical providers were identifg beneficiares covered by EGHPs in
                 addition to their Medicare entitlement;

                 providers were correctly bilng the Medicare contractors;

                 Medicare contractors had appropriately adjudicated       clai
                                                                          to ensure
                 Medicare was the secondar payer for those     clai
                                                                  submitted by
                 providers that had not detected the EGHPs; and

                 the Health Care Financing Admistration (HCF A) had provided
                 policies and procedures to promote identification of ESRD
                 beneficiares with EGHP coverage.

BACKGROUND

Several years ago, Congress recogned that a substantial number of Medicare
beneficiares had access to medical inurance through their employment. Therefore
Congress amended the Social Security Act makg Medicare a secondar payer of health
care expenses when a beneficiar had an employment-related medical inurance plan
which would be the primar or fist payer of medical    clai.
Based on the Omnbus Budget Reconcilation Act of 1981 , which amended Section
1862(b) of the Social Security Act, Medicare is the secondar payer for ESRD
beneficiares for up to 12 months followig entitlement if the person is eligible for medi­
cal inurance under an EGHP. Coverage by an EGHP can be through the employment
of the beneficiary, a spouse , or another person (usualy a parent). Reguations and in­
structions implementing this provision have been issued by HCF A to intitutional and
nonititutional renal dialysis facilities and to medical care providers.
METHODOLOGY

The Office of Inspector General (OIG) conducted a program inspection of admission
and biling records of 498 ESRD patients at 36 randomly selected renal dialysis facilties
in 9 States. The OIG also inpected related payment records from Medicare inter­
mediaries and carriers, the Medicare program contractors responsible for the payment of
Medicare claim.   The inpection covered beneficiares receiving dialysis servces during
calendar year 1985.


MAJOR FINDINGS

                A review of facility and payent records, and subsequent follow-up
                contacts, indicates that in            1985 Medicare mad excess payents of
                $926 526 for renal dialysis selVices provided by sampled facilities.
                Projected natonally, Medicare overpaid              $19, 563, 181 in 1985.

                Due to weakesses in adission procedures, in over one-fourth of the cases
                the provider did not identify benefciares covered by an EGHP which was
                the primar payer.

                With minor modifcatons, the Social Security Administraton (SSA)
                application form represent an important document for the basic detection
                of benefciaries covered by an EGHP.

                Due to weakesses in the Medicare contractors ' informaton-gathering and
                review processes, identification was not mad     of a signifcant number of
                payents for which Medicare did not have primar liability.

                Lak of coordinaton of beneft payents between Medicare intermediaries
                and carrers contrbuted to improper contractor payents in excess of
                $206, 000. Projected natonal savings would be $4 360, 500.

                In a number of cases, ESRD benefciares were entitled at diferent times
                under health insurance numbers with both the benefciary identificaton
                codes (RICs) T andA. Due to a change of benefciary stat, the RIC
                changed but the numbers were not cross-referenced by Medicare
                contractors to refect total payent amounts. Cross-referencing would aid
                in the identificaton of overpayent total.

RECOMMENDATIONS AND AGENCY COMMENTS

                The HCF A should require Medicare contractors to recover all
                identified overpayments for the 1985 review period , and ensure
                compliance with HCF A intructions and guidelies in order to identify
                and recover Medicare overpayments.

The HCF A is intructing the contractors to recover al identifed overpayments.
However, HCF A does not feel that the overpayment problem is as signcant as
projected. While we recogne the efforts of HCF A and the contractors over the last
                                             .. .




several years , we point out that the savigs were the product of a statistically valid sample
as described in the footnote to Table TI.

                 The HCF A should revise its regulations to require the use of an
                 admission form which fully develops Medicare secondar payer (MSP)
                 sources, and adopt admission procedures which identif beneficiaries
                 covered by an EGHP that is a priar payer. liewise , HCF A should
                 consider application of appropriate sanctions , to include civil monetary
                 penalty where false  clai  have been submitted , for providers that are
                 consistently found to ignore MSP provisions.

The HCF A generally concurs with the recommendation and is exploring more intensive
bil review procedures and , if necessar, sancdon of providers that do not comply with
MSP provisions. The HCFA' s reference to a generaled admission form pertai
areas that should be covered by all providers as part of their individualized admission
form. Further, according to HCFA policy, revisions to Federal regulations covering
provider agreements are being prepared which wil expand on criteria for provider per­
formance in detection of MSP situations.

                 The HCF A should develop sources of inormation on beneficiaries with
                 EGHP coverage either by:

                 enlisting the cooperaton of SSA in revising the HCFA- 43 applicaton form
                 to obtain and transer EGHP informaton, or

                 requiring Medicare contractors to establish and follow a separate EGHP
                 information-gathering process directly with the benefciary.

The HCF A concurs with the recommendation and has required contractors to develop
MSP inormation after receipt of the first claim      from a beneficiar.   The SSA comments
reflect its wingness to work with HCF A in this area.

                 The HCF A should ensure that both Medicare intermediares and
                 carrers have a coordination of benefits capabilty in place to provide for
                 proper claim processing and        identification of EGHPs.

The HCFA agrees with the recommendation. The HCFA response reflects that its data
exchange system, as implemented, provides leads to servcing contractors in developing
claims.

                 The HCF A should ensure that Medicare contractors are
                 cross-referencing their own beneficiary suff     account   records to achieve
                 a total payment history.
The HCF A is in agreement with the recommendation. A system to extract extraneous
data from the files is being developed to assure cross-referencig   of beneficiar accounts.


The text of HCF A' s comments to the draf inpection report are included in the Appen­
dix.
                                   INTRODUCTION

BACKGROUND

Titlexvr    of the Social Security Act (42 USC 1395), enacted in 1965, established the
Medicare program to pay for health care servces for eligible beneficiares 65 and over.
As originally enacted , Medicare was made the fist or priary payer for beneficiaries
health care servces , with the exception of workers ' compensation or servces provided in
Federal hospitals. The 1972 amendments to the Social Security Act extended Medicare
coverage to persons of al ages on the basis of a diagnosis of end-stage renal disease
(ESRD).

The Social Security Act subsequently was ame nded to limt Medicare payment for
beneficiaries inured under an employment-related medical inurance plan. This in­
cludes employer-sponsored and self- insured programs. Thoughout the report, the term
employer group health plan (EGHP) wi be used for such plan.

In these cases , the group health plan is the priar payer for servces rendered, and
Medicare is the secondar payer, to the extent that servces have been paid for by the in­
surers. This litation is referred to as the Medicare secondar payer (MSP) provisions.
A major extension of these provisions was Section 2146 of Public Law 97- , Omnbus
Budget Reconcilation Act of 1981 ,which became effective October 1 , 1981. This legisla­
tion amended Section 1862(b) of the Social Security Act to make Medicare the secon­
dary payer to employer group health plan for beneficiaries with end-stage renal disease.

This section of the Act basicaly alows a benefit coordination period between Medicare
and EGHPs. Ths is a 1-year span of time afer dialysis stars and comprises an initial 3­
month waiting period for a beneficiar to be eligible for Medicare benefits. There are ex­
ceptions to this waiting period which can provide entitlement for up to the fu 12 months
from initiation of dialysis. The exceptions include the qualifed beneficiar having (1)
                         traig
begun a self-care dialysis         plan or (2) received a kidney tranplant durg the ini­
tial 3 months afer staring dialysis.

Throughout the applicable coordination period , Medicare usually wil be the secondary
payer for those individuals entitled to benefits solely on the basis of ESRD. The
provisions of this amendment pertain to servces furnshed after September 1981 to
ESRD-entitled individuals for the 12-month coordination period which began on or after
October 1 ,   1981.

Federal regulations implementing this secondary payer provision were published April 5
1983. Based upon these regulations , the Health Cae Financing Administration (HCF A)
issued intructions to hospital-based and nonhospital-based renal dialysis facilties in
1983. Previous intructions covering the Medicare program as secondar payer were is­
sued by HCF A in May 1982. The HCF A intructions called for records to be maintained
on claims showig an EGHP and for subsequent reexamnation of these records when


October 1   , 1981.
regulations were promulgated for individuals entitled to Medicare on the basis of ESRD.
Reguations and HCF A instructions made implementation of provisions retroactive to


There were 103, 997 beneficiares identifed as  ESRD enrollees by the middle of 1985.
Of these, 9 598 beneficiares were entitled to Medicare ESRD benefits in calendar year
1985. Many of these individuals were employed prior to the onset of ESRD which re­
quired a continuous program of dialysis , and they continued to work and have coverage
through their employers. Such coverage would exist regardless of the number
employees because there is no requirement under ESRD provisions that the employer
must have 20 or more employees. In such cases , the EGHP would be the priar payer
for medical expenses incurred up to the intial 12 months of the beneficiaries ' Medicare
entitlement.

The HCF A directives require Medicare intermediares and carers    to have administra­
tive procedures that screen al clai for the existence of other priar payers. Inter­
mediares and carers (hereafer referred to as contractors) make program payments for
intitutional and nonititutional provider   clai  respectively.

Steps taken admistratively by   HCF A since 1984 to enhance detection of   al third- party
resources include (1) a one- time effort to recover ESRD dollars incorrectly paid for
claims processed , (2) the establishment in Fiscal Year 1985 of Medicare secondary payer
(MSP) goals for contractors (a specific MSP- ESRD goal was established in Fiscal Year
1986), (3) periodic on-site MSP reviews of providers by contractors to analyze the effec­
tiveness of MSP outreach program. Other activities being pursued by HCF A included a
one- time questionnaie maig to elicit MSP inormation for beneficiares and estab­
lishment of a State or regional depository for MSP inormation to which Medicare con­
tractors could query   clai.
PURPOSE

The Offce of Analysis   and Inspections (OAl),Offce of Inpector General (OIG), had
conducted a number of regional inspections from 1983- 1985 to determe if ESRD
facilties were identifyng EGHP coverage for ESRD Medicare beneficiaries and biling
appropriately, and the propriety of payment made by Medicare contractors. These
reviews identified substantial Medicare payments where an EGHP existed but was not
identified by the provider or Medicare contractors.

The Office of Audit (OA), Offce of Inspector General , has also been involved in ac­
tivities related to MSPIESRD. In a recent report, OA found in reviewing an earlier
period that Medicare contractors in the State of Washington had been improperly reim­
bursing facilities for medical servces where an EGHP was primary.

A joint Region IX OA and OAI study focused on how accurately claims were processed
by Medicare intermediares when there was a prior indication of a primary payer other
than Medicare and a no-payment claim was submitted. When a beneficiary was found in
both samples , the beneficiar was dropped from this sample for overpayment calculation.

Considerig the fidings of these regional inpections and the administrative initiatives
of HCF A, the OIG undertook this inpection to determe the national prevalence of un­
detected MSP situations for ESRD beneficiaries and to estimate the cost of improper
Medicare payments.


METHODOLOGY

The program inpection methodology included the identification of 36 ESRD facilties in
9 States which were picked at random using a 2-stage sample design. The States and the
facilties were selected with probabilty proportional to size using the number of ESRD
beneficiares as an indicator of size. The 36 facilities included 20 hospitals and 16 non-
hospital-based or free-standing facilties. The facities within each State were selected
using a method which reflected the relative distribution of hospital and nonhospital
facilities in that State.

Beneficiares whose ESRD Medicare entitlement began in calendar year 1985 , and who
were treated at these facilties, were included in the study. Admission and patient biling
records for these ESRD beneficiares were reviewed in order to validate the ESRD onset
date and to determe whether the facility had correctly identifed and biled Medicare
on behalf of beneficiares where an EGHP would have been priar payer. A total of
498 records were reviewed for al facilities. At each of these facilities, the team con­
ducted personal intervews with the providers ' admssions and business offce staf
responsible for patient admission and bilg functions. Payment records were obtained
from 21 Medicare contractors for the beneficiares in the sampled facilties. These docu­
ments were used to verify whether Medicare made priar payments for the ESRD
beneficiares during the period in which EGHPs had liabilty as priar payers.

A review was conducted of these records to identif whether an EGHP existed. Where
provider records reflected an employed spouse or relative , the inpection then ascer­
tained whether the spouse or relative was a member of an EGHP, and whether the
beneficiar was covered as par of that plan. Where an EGHP existed , but had not been
identified by the provider and/or Medicare contractor for primar payment , the inpec­
tion team referred to the contractor s payment records to determne the overpayment
the intermediar and/or carer. The amount of national savigs was obtaied by project­
ing the total overpayment from the sample to the ESRD providers for calendar year 1985.
                       FINDINGS AND RECOMMENDATIONS


The primar purpose of the inpection was to determe , for a 12-month period , the ex­
tent of overpayments made by Medicare contractors for servces to ESRD beneficiaries
provided by a randomly selected sample of 36 hospital and nonhospital providers , and to
calculate projected savigs if the results are applied to the unverse of ESRD providers.
While on-site visits were not made to Medicare contractors , nor were contractor systems
tested , the extent of the overpayments identifed can indicate a lack of operational effec­
tiveness. Weaknesses or problem areas are reported in the specic fidings and recom­
mendations of this report.

       MEDICARE OVERPAYMENTS

       Finding,

       Out of the 498 ESRD beneficiares entitled to Medicare in the sample , 282 (56.
       percent) were identifed as havig coverage under an EGHP. Of this number , 135
       beneficiares were found to be covered by an EGHP which should have been the
       priar payer for ESRD servces durig the coordiation period but was not. The
       total overpayment of $926 526        was calcuated for servces          reimbursed by the
       Medicare intermediar and/or carer for the beneficiares in the sample. The
       overpayment calcuation does not include overpayments for beneficiares with on­
       sets prior to 1985 nor onsets in 1985 with payments in 1986. A breakdown of the
       overpayment is shown on the followig               char.



                    MEDICARE OVERPAYMENT:
                  EGHP Should Have Been Primary Payer

                  Medicare Payments to:

                       Sample Facilities                                 $504 833


                         Other Facilities                    $221 195


                        Other Providers                    $146, 693


                           Beneficiaries


                                            so $100 $2 $3 $4 $5 $6
                                              JUount of            ent
                                                                                     .-'   --

Table I in the appendix identifes the source of overpayment by intermediar, by
category of sampled facilties and other facilties , and by carer for assigned and
nonassigned clai.

Projecting the sample overpayment results to al ESRD providers for the period
of the review, the inpection team estimates potential national savigs of
$19 563, 181 for the Medicare program (Table II). This calculation takes into con­
sideration only entitlement in 1985 and is lited to payments made for servces in
1985.

Recommendation
The HCF A should intrct Medicare contractors to recover overpayments and , if
applicable, to pursue subrogation to recover identifed overpayments from third-


 , 1985.
par payers. Because of the substantial size of the projected overpayment, con­
sideration should also be given to a special review of servces on or after January


ADMISSION PROCEDURES

Finding

Thir-four percent of the sampled beneficiares had EGHP coverage based upon
another household member s (primary the spouse s) EGHP. In the overpay­
ment cases , the provider had not pursued or fully developed inormation on
employment of the spouse and/or coverage under the spouse s or other person
EGHP for correct bilg to Medicare. Because of the study design this percent­
age does not reflect "potential coverage " where beneficiares with an EGHP also
have workig spouses with an EGHP.

In order to improve the identifcation of such EGHP payment sources , HCF A
developed a supplemental decision document which proceeds through varous
steps that cover MSP factors. The document includes a step for determng
whether: (1) the spouse or other person is employed , (2) an EGHP exists in these
cases, and (3) the beneficiar is covered under its provisions. The capabilty to
detect these MSP situations appeared to be enhanced where the providers ' admis­
sion forms required this information, or when the providers used a decision docu­
ment or their admission procedures called for a systematic review process.

Recommendation
The HCF A should reemphasize the importance of providers ' use of systematic ad­
mission procedures which query al factors, including a workig spouse , that relate
to MSP. The HCFA can do this through instructions to contractors , who should
then produce newsletters , conferences , or other communications to providers, and
by revision of its regulations to require the use of an admission form which fully
develops MSP sources.

Providers that consistently are found to ignore the MSP provisions should be con­
sidered for application of appropriate sanctions, to include civi monetar penalty
where false    claihave been submitted.

DEVELOPMENT OF INFORMATION SOURCES TO IDENTIFY
EGHP COVERAGE

Finding

The extent of the Medicare overpayment, which averaged $6, 863 for each iden­
tifed ESRD beneficiar covered under an EGHP, indicates a substantial weak­
ness in the identifcation of EGHPs which would make Medicare the secondar
payer.

If the intitution, physician or other provider does not identif Medicare as secon­
dar payer to an EGHP , the Medicare contractor must detect EGHP coverage as
par of the Medicare clai adjudication process. The contractor, in turn must
rely upon a screenig   process whereby the beneficiar       is targeted for MSP review
because he or she is workig or has previously been identifed for MSP. It is im­
portant that the Medicare contractors have the abilty to screen individual claims
and take action to recover any overpayments from the payees or to subrogate, as
applicable , from the inurance companes.

Two factors in ESRD reimbursement should be considered in such detection and
recovery processes.

                Institutional and noninstitutional providers may file for conditional
                Medicare payents. However, in dicussions with fadlities, the inspection
                team found that facilities do not routinely bill Medicare unless the EGHP
                payent is less than the amount payable for Medicare-covered services or
                a denial is received from the partcular   employer's plan.


          b.    As refected in the finding on adission procedures, over one- third
                of the beneficiaries were covered under an EGHP as a function of the
                spouse's employment or the employment of one or both parents.

An effective contractor detection process should also include the capabilty to
reference and analyze all coverage factors pertinent to that beneficiar. Factors
include the application for ESRD benefits and any direct contact with the
beneficiar prior to processing claims.
The application form for end-stage renal disease is the HCF A-43. While the form
asks for inormation about the claiant' s work status , it does not require informa­
tion about the claimant' s EGHP benefits. liewise , the HCF A- 43 does not re­
quest inormation concerng coverage under a spouse s or other person
(parent' s) EGHP. Presently, the inormation provided in HCFA- , as with So­
cial Secuty Admistration (SSA) application form, is confdential and is not dis­
closeable for MSP reference.

A pilot project is being conducted by HCF A and SSA to obtain additional MSP re­
lated inormation at the time the SSA application is taken. The pilot involves a
sample of States and SSA District Offces. The inormation is obtaied on an ad­
ditional form and forwarded to the servcing Medicare carier. The HCF A is
presently evaluating the results of the project.

Presently, HCF A does not require the Medicare contractors to routinely follow a
separate process to obtain information directly from beneficiares on whether they
are employed and covered by their own EGHP , or are covered under another
person s EGHP.

Recommendation
The HCF A-43 is a valuable " lead document" to assist in identifg where MSP
provisions apply to Medicare entitlement based upon ESRD. The HCF A should
coordinate with SSA to develop the necessar agreements and mechansms for in­
formation or computer edit transfer. Furher, HCF A should expand the informa­
tion obtained in the HCF A-43 to include whether the claimant is a member of the
employer s EGHP and whether the spouse or other person is a member of an
EGHP.      such coordiation can be worked out , the SSA would provide HCFA­
43 inormation to HCF A for claiants who have been approved for ESRD
benefits.

  HCF A determes that expanion of the HCF A-43 is not possible , then HCF A
should develop procedures to require that contractors obtain potential MSP infor­
mation from al newly entitled ESRD beneficiares. The newly entitled
beneficiares average approxiately 10 000 per year , and MSP workups would
amount to an annual average work load for each contractor of less than 210
beneficiar contacts.
COORDINATION BElWEEN INTERMEDIARIES AND CARRIERS

Finding

In the analysis of overpayments made by the Medicare contractors, the inpection
team found intances in which the intermediar or the carrer, but not both , had
identified the existence of EGHP coverage and correctly processed the claims as
...   ...
    ... ...........,'..,"",.....
    .....
.........        .." .,,'....,_.
                ....   .... :...:.:   ........   .......... .   ..
                                                                ...::))):'$   ~~~~~
                                                                              """", "'''''""''''"'
                                                                           ................."""""
                                                                """' ."................
                                                                         ................ ... .. ..... ""
                                                                                                       ...::::::::::::::::::
                                                                                                             .....,","..
                                                                                                              ..,"""."::::::::     .........
                                                                                                                                      .. ..
                                                                                                                                     ....      """""","",""..-...
                                                                                                                                               """"""""",,",,",,""'..""
                                                                                                                                                ....... .. ..............
                                                                                                                                                                    .."''''... .   ...




                    secondar. An indication of the extent of the lack of coordination for servces
                    reimbursed is noted as follows:
                                                                                                 ... n..
                                                                            ::J)Y rn3ym                         Jit                                  f9j                        d$fAi
                                                                           :::::AriiouJJf                                                         $#rt*g                       9ij..(p
                                                                                                                                               . """,,,,"""''''''..'''''', ......n",...

   EGHP identified by                                                          $158 990                                                           $3, 355, 000
   intermediar but
   payment made by carer


   EGHP identifed by                                                                   630                                                            005 500
   carier but payment
   made by intermediar
                                                                . n
                                                        ..... '""0'

:.:.:.tOTAtS                                                                                                                                                   9;$99.....::




                    Lack of a system for coordinating MSP inormation between intermediares and
                    carers is a contributory cause of improper contractor payment of ESRD claims
                    totalg $206 620.

                    Recommendation
                    The HCF A should ensure that a " crossover" capabilty is in place to provide coor­
                    dination of benefits/claims processing to and from Medicare intermediaries and
                    carers.
                    CROSS- REFERENCING BENEFICIARY ACCOUNTS

                    Finding

                    There are cases where the individual may be entitled as an ESRD cuently in­
                    sured beneficiar (T suff) and subsequently be issued a fuy inured health in­
                    surance number (A suff). In such cases , the contractors must cross-reference
                    the numbers to ensure correlation of a total payment history profie for the
                    beneficiary.

                    The inpection team found that in a number of cases beneficiares have been en­
                    titled under both an ESRD T-suff and ESRD A-suff without these being cross-
                    referenced to reflect the total Medicare payment amounts for both accounts.
                    When the team requested a payment history, only one of the accounts was
                    provided. If an overpayment would apply because Medicare improperly paid as
                    primary when EGHP coverage existed , the total overpayment might not be deter­
                    mined since both accounts had not been cross-referenced.
Recommendation
The HCF A should ensure that Medicare contractors are properly cross-referenc­
ing all accounts.
                                 APPENDIX


                         TABLE 1
            MEDICARE SECONDARY PAYER PROVISION

                    ESRD OVERPAYMENT

MEDICARE CONTRACTORS                     OVERPAYMENT
Type of Contractor                       Amount        Total
Intermediaries
             Sample Facilities           $504 833
             Other Facilities                221 195
Intermediaries                                         $726 028
Carriers
             Assigned Payments           $146 693
             Nonassigned Payments             805
CARRIERS                                               $200 498
ALL CONTRACTORS                                        $926, 526
                             TABLE 2
               MEDICARE SECONDARY PAYER PROVISION
                   ESRD PROJECTION OF SAVINGS
                        FOR 1985 SERVICES
  MEDICARE CONTRACTORS                                    PROJECTED SAVINGS
  Type of Contractor                                      Amount             Total
  Intermediaries
                  Sample Facilities                    $105, 625
                  Other Facilities                         294 230
  Intermediaries                                                          $15, 794 855
 Carriers
                 Assigned Payments                     $ 2 913 365
                 Nonassigned Payments                       854 961

  CARRIERS                                                                 $ 3,768 326
  ALL CONTRACTORS                                                         $19 563 181


Lre projections for this inpection, which represent only overpayments for beneficiaries
with onset and servces in 1985 ,  were arved at by multiplyig the findings for each
facility by the inverse of the samplig probalties associated with the facilty. The States
were selected with probabilty proportional to size, size being determed by the number
of ESRD beneficiares withi each State. Facities withi each State were selected in
the same fashion except that the sample was picked to reflect the proportion of hospital-
based and nonhospital-based facilities found in each State.
            '''        .,                                                ;/ /.. 





                                                                                    Health Care
                  DEPARTMENT OF HEALTH & HUMAN SERVICES	                            Financing AdministratIon



''.'''''0
                                                                                         emOrandUm
      Date

     from


     Subject	
                         D. 	
                  Adinistrator
                                1987

                    lllam L. Roper, d.


                  OIG Draft Report: " r-edicare
                                                            11. (T/-av'l
                                                     DoS a Secondary Pa 1Tent Source -   End Stae:c

                  Rena Disease, "      OAI- Oi-86-00092


                  The Inspector General

                  Office of the Secretary




                  We have reviewed the OIG' s draft report detaili   the results of thc
                  national inspection of program reimbursement to end stage renal discase
                  facili ties. We concur with the findings in the report, and our commen
                  on the specific recommendations are attached for your consideration.

                  Thank you for the opportunity to comment on this report.



                  At tachment
           Coents of the Health Care Finacing Adinistration on the
                                                         Soure -­
           01G Draft RepOrt " Meicare     as a Secondary Payment
                      End Stas:e Renal Disease " - OAI- 07- 86- 00092


OIG Reommendation
Require         icare contractors to recover all identified overpa)
        nts for
the 1985 revie\o period, and ensure compliance with HCFA instructions            and

guidelines in order to identif;\" and recover Meicare overpymnts.


HCF A     Conts
We will instruct contrators to recover those overpa ents identified as a
result of t.e study. This will require that the OIG furish us with    a
listing of identified o..erpa:' ents for each contractor reviewed. However I
 e would note that with respect to services on or after January 1, 1985,
we do not believe the overpayment problem          wa as significat
                                                              as projected
by the OIG. Initially,  contractors could not identif . end stage renal
disease (ES) claims on a prepaymnt bais, thus while overpyments    have
been mae, ma)'                                       'Jent review.
                      were subsequently recovered upon post-
                                                                        ES claims
 Contrators have since develo
         the capability to identify
 before payment.



 OIG Recommendation


 Revise regulations to require use of an         adission
                                                     form   ich fully

 developst-3edicare Secondary Payer (MSP) sources, and adopt            adission

 procedures which identif)" beneficiaries covered b:.' an employee group

 health plan (EGHP) that is a        primy payer.
                                               Providers that consistently

 are found to ignore the MSP provisions should be considered for

 application of appropriate sanctions, to include civil moneta . penalt

 where false claims have been submitted.


  HCFA Comments


  HCFA began an " outreach" progra in FY 1987 to educate providers,

  beneficiaries, employers, and insurers about 1'3edicare as a secondar)"

     er.  \re have had particular success wi th the        ES
                                                        providers, probably
  because they are, as a group, an easily identified population.
   Contractors that have discussed ESRD claims procedures \.. i th providers ha\"e
  ad\"ised them that claims should be sent directl        ' to insurers rather
                                                                        than
  being submitted to Medcare contractors. In     addition, we routinely sample
  pro\"der   adssion  procedures to identif)' and correct inappropriate
   practices.
   There is a generalized admission form that is used currently by all
   pro\"ders. To supplement that form, "e have included in both the provider
   maual and the intermediary maual a series of questions that develop HSP
   infonntion.   Therefore, we do not believe a regulator;\' revision 

   necessary at this time.


   \O:e currently   are considering more i ntensi \"e bi 11 reviel" procedurps nnd.
   necessary,      sactions against providers that do not comply ,.;1 th f'1SP
    prov isions.
                                                                     Pae 2


OIG Reommendation

Develop soures of informtion on beneficiaries with    EG coverae ei ther
by:
         enlisting the cooperation of SSA in revising the HCFA-43

         application form to obtain and transfer EGHP informtion, or


         require Meicare contractors to establish and follo separate EGHP
         informtion-gathering process directly wi th the beneficiar

HCFA   Coents
We concur with your   alternte recommendation. We are now requiring
contractors to develop the first claim received from any beneficiar:.. . The
development letter requests data on the beneficiary s or spouse
employment, insurance coverage, and other informtion that would pro'.ide
lead for  MSP situations. The infonntion is entered into a data base to
be share with other contractors.

OIG Recommendation


Ensure that both Medicare intermediaries and carriers have a coordination

of benefi ts capability in place to provide for proper claims processing

and identification of EGHPs.


HCFA Comment


We have recently implemented a data exchange system among contractors
which penn ts quarterly exchanes of MSP data. This s:rstem provides     lead
to the receiving contractor and limi ts the duplication in effort among
contractors in developing claims.


OIG Recommendation
Enure Meicare contractors    are cross-referencing their own beneficiary
suffix acount record to achieve    a total payment history.

HCFA   Coents
From an MSP aspect, as contractors improve their data baes as a result of
the data exchane system   describe   above, we e  ct that cross-referencing
of accounts will be less of a problem. We are no\.: de\O eloping a purge
s:,'stem which will remove extraneous data from the data base. Once this is
installed, we will be better able to review the informtion and assure
that cross-referencing is being used.
